                                     Office of Inspector General
                                     U.S. Small Business Administration



                                                                                                     May 2012 Update


  Business Loans                                                      At the time they signed the SBA business loan
  Virginia Business Owner Indicted: $17.7 Million                     application, however, both had both been involved in
  Judgment & Forfeiture Sought                                        bankruptcy proceedings. In addition, the daughter was
  On April 26, 2012, a Virginia business owner was                    involved in a pending lawsuit and had a controlling
  indicted on one count of conspiracy, one count of                   interest in another business. The indictment also alleges
  conspiracy to commit bank fraud, one count of money                 that all four individuals made material false statements to
  laundering, nine counts of bank fraud, four counts of               obtain another business loan for the business. The loss to
  false statements for the purpose of influencing a financial         the financial institution and the SBA is approximately
  institution and/or the SBA, and nineteen counts of                  $1.45 million, of which the SBA-guaranteed portion is
  structuring currency transactions. The indictment also              approximately $931,368. The loss to another bank is
  contained forfeiture allegations, which notified the                approximately $1.65 million.
  defendant that the United States intended to seek a $17.7
  million money judgment, and to forfeit— as proceeds of              Man Sentenced for Role in $17 Million Fraud Scheme
  the alleged fraud— a number of assets including bank                On May 7, 2012, a businessman was sentenced in New
  accounts and real property. On May 10, 2012, the man                Jersey to 24 months probation and a $100 special
  was named in a superseding indictment that added                    assessment fee. In addition, he was ordered to pay off
  business assets, vehicles, and investment accounts to the           the balances on an SBA loan in the amount of $33,236.97
  forfeiture notice. The subject is alleged to have                   and a bank loan in the amount of $98,955.32. The
  participated in a multi-million dollar scheme involving             subject had fraudulently obtained these loans for his
  bogus treasury checks and tax returns. In addition, he              business using the identity of another individual.
  allegedly misrepresented his citizenship status in the              On May 9, 2012, a second subject was charged by
  course of obtaining a $149,000 SBA loan and a $203,000              criminal information and pled guilty to one count of
  bank loan. This is a joint investigation with the Federal           conspiracy to commit bank fraud. The subject had
  Bureau of Investigation (FBI).                                      obtained a $50,000 SBA loan from a bank, as well as two
                                                                      other commercial loans totaling an additional $65,000,
  California Group Indicted on Fraud that Resulted in                 from other lending institutions. The man obtained these
  nearly $1.45 Million Loss to Banks and the SBA                      loans using his wife’s name and a fictitious business
  On May 2, 2012, a California couple and two associates              name. Both of the these events were as a result of the
  were indicted. The husband and wife were each charged               OIG’s continuing investigation into an organized group
  with 2 counts of mail fraud, 11 counts of bank fraud, 5             in New Jersey, who obtained credit cards and loans from
  counts of false statements in a loan application, 2 counts          various lending institutions using false identities,
  of false statements, 2 counts of false statements to obtain         documents, and business names. The investigation also
  an SBA loan, and aiding and abetting. Their daughter                revealed that loan officers at various banks were involved
  was indicted on varying counts of the same charges.                 in the scheme. Analysis of financial records and SBA’s
  Another individual was charged with two counts of mail              loan database revealed that 216 SBA loans totaling
  fraud, and aiding and abetting. The indictment alleges              approximately $17.359 million had been dispersed in the
  that the defendants executed a scheme to defraud a                  loan scheme. The portion of this amount guaranteed by
  financing corporation, a bank, and the SBA by making                the SBA totaled $10.975 million. The scheme also
  false statements to obtain business loans for a combined            involved 59 loans not guaranteed by the SBA. Each
  gas station and car wash the couple owned in Fountain               business or individual obtained multiple loans usually
  Valley, California. Specifically, it is alleged that the            from different financial institutions. This is a joint
  daughter and the other individual falsely reported that             investigation with the Internal Revenue Service Criminal
  neither they nor their businesses were involved in any              Investigation (IRS CI), the Englewood New Jersey Police
  bankruptcies or pending lawsuits, and they did not have a           Department, and the Bergen County Prosecutors’ Office.
  controlling interest in other businesses.


Monthly Update on Activities of the SBA Office of Inspector General
President of Financial Services Firm Sentenced on                     proposed debt. However, during the several months
Money Laundering Charges                                              preceding his loan application and disbursement, he was
On May 11, 2012, the president of a Utah financial                    aware of an ongoing criminal investigation and audit
services firm was sentenced to 12 months and one day of               involving his claims submitted to Medicare. This
incarceration, 36 months supervised release, and                      investigation and audit, which the chiropractor allegedly
$165,960.49 in restitution. The subject had previously                did not report to the lender, had a substantial adverse
pled guilty to money laundering. The investigation                    effect on the financial condition and operations of the
revealed that the subject and his business partner                    business. If the bank had known of the pending
recruited “straw borrowers” and used the borrowers’                   investigation and audit of his claims or the resulting
names and good credit to fraudulently obtain $399,900 in              reduction in business income and cash-flow, it would
business loans. The straw borrowers were promised                     have declined the loan. The concurrent investigation of
compensation for allowing the men to use their personal               the business’ Medicare claims resulted in a previous
information to fabricate application documents in order               indictment charging the doctor with four counts of
to induce the banks to approve the loans. Further, the                Medicare fraud. This is a joint investigation with the
men enticed the straw borrowers to submit documents                   Department of Health and Human Services OIG, the
indicating that they owned thriving businesses when, in               Illinois Attorney General, and the FBI.
fact, the businesses only existed on paper. Overall, the
men fraudulently obtained a total of four SBA loans and               Disaster Loans
two regular bank loans. This case was initiated based on              Retired Judge Indicted for Fraud Related to Hurricane
a referral from the SBA Utah District Office and is a                 Ike Disaster Loan
joint investigation with the IRS CI.                                  On May 2, 2012, a Texas man was indicted on five
                                                                      counts of fraud in connection to a major disaster. The
Man Sentenced on Conspiracy Charges – Ordered to                      indictment alleges that the subject, a retired judge,
Forfeit $1.3 Million                                                  provided false statements in order to obtain a Hurricane
On May 31, 2012, a Maryland man was sentenced to 33                   Ike SBA disaster loan. Specifically, the indictment
months incarceration, 2 years supervised release,                     alleges that he made false statements about the location
$713,000 restitution, and ordered to forfeit $1.3 million.            of his primary residence, the address for his homestead
The subject had previously pled guilty to one count of                exemption, and the payment of the required personal
conspiracy to commit bank fraud. The investigation                    equity injection. At the time of Hurricane Ike, the
revealed that he encouraged prospective borrowers to use              subject’s primary residence was in Conroe, Texas;
the services of a specific company to apply for business              however, he claimed it was in Crystal Beach, Texas, in
loans through the SBA. Under this program, the                        applications submitted to the SBA and the Federal
principals of small businesses seeking loans are required             Emergency Management Agency (FEMA). The subject
to invest a certain amount of their own money, called an              obtained a $125,000 SBA loan to reconstruct his Crystal
equity injection, in order to qualify for a loan. The                 Beach property. He further obtained approximately
subject and others submitted SBA loan applications and                $10,000 in FEMA disaster assistance for emergency
supporting documentation to loan originators and                      housing needs despite having a primary residence in
underwriters on behalf of their clients. The investigation            Conroe, Texas. This is a joint investigation with the
disclosed that the packages contained fraudulent personal             Department of Homeland Security OIG.
financial statements and/or monthly bank statements that
overstated the net worth and equity injection amounts of
                                                                      Government Contracting & Business
the borrowers to falsely enhance their creditworthiness.
This is a joint investigation with the FBI.                           Development
                                                                      Missouri Men Sentenced for Role in Government
Chiropractor Indicted on $100,000 SBA Loan Fraud                      Contracting Fraud and Bribery Case
following Medicare Fraud Indictment                                   On May 8, 2012, the co-owner of a Missouri contracting
On May 31, 2012, a Chicago-area licensed chiropractor                 firm was sentenced to 24 months in prison, 1 year
was indicted in the Circuit Court of Cook County,                     supervised release, and a $50,000 fine. The judge
Chicago, Illinois. The indictment charged the                         postponed imposition of restitution for a 45-day period.
chiropractor with four counts of financial institution                On May 15, 2012, the owner of a construction firm who
fraud and four counts of loan fraud. The indictment                   served as a silent partner to the contracting firm was
involves a $100,000 SBA loan made to his chiropractic                 sentenced to 36 months probation, a $60,000 fine, and
business. As part of his loan application package, the                restitution of $1,550,000. He was also ordered to forfeit
doctor submitted historical financial statements                      $1,550,439.78 in cash and a 2011 Jaguar luxury vehicle.
demonstrating the business’ ability to service the                    Both men had previously pled guilty to criminal



Update on the Activities of the SBA Office of Inspector General   2                                       May 2012
conspiracy involving government contracting fraud and                 from the fraud. The investigation revealed that the men
illegal payment of gratuities to a federal official. Both             devised a scheme whereby they created a company for
admitted to placing a service-disabled veteran as the                 the purpose of obtaining a $100 million small business
purported president and operator of their contracting                 set-aside language instruction contract with the
firm. In fact, the veteran was merely a figurehead in the             Department of Defense (DOD). They used a nominee
“rent a vet” scenario. From 2007 until 2010, the                      owner to create the appearance that the business was not
contracting firm obtained approximately $3.4 million in               affiliated with another business, under their control, that
contracts from the Department of Veterans Affairs (VA)                had been the incumbent contractor on the previous DOD
by misrepresenting itself as a qualified Service-Disabled,            language instruction contract. The men submitted false
Veteran-Owned Small Business (SDVOSB). The VA                         and misleading information concerning the relationship
contracts were funneled to their affiliated construction              between the two companies after the affiliation was
firm and contractors, who performed the work. In                      challenged in the course of a size protest submitted to the
addition, a former engineer for the VA directed set-aside             SBA Office of Government Contracting. This is a joint
and sole source contracts to the contracting firm. The                investigation with DCIS.
engineer received gratuities from the owners of the
construction and contracting firms. This is a joint                   Agency Management
investigation with the General Services Administration                Former SBA Administrative Officer Indicted for Theft of
(GSA) OIG and the VA OIG.                                             Public Money and Wire Fraud
                                                                      On May 31, 2012, a former administrative officer for the
Former Federal Program Manager Pleads Guilty to                       SBA Alabama District Office (ADO) was indicted on
Bribery of a Public Official and Conspiracy                           one count of theft of public money, property, or records
On May 17, 2012, a former program manager with the                    and eight counts of wire fraud. The investigation alleges
U.S. Army Corps of Engineers (USACE) pled guilty to                   that she made approximately $30,553 of personal,
bribery of a public official and conspiracy to commit                 unauthorized purchases using the government purchase
money laundering. Additionally, the subject agreed to                 card assigned to the SBA ADO. Additionally, it is
the forfeiture of a money judgment in favor of the United             alleged that she filed approximately 59 falsified travel
States for $11,082,687 and specific property as set forth             vouchers, resulting in her receiving approximately
in the plea agreement. On the same date, the subject’s                $21,905 from the SBA that she should not have received,
son pled guilty to a one count information charging                   and made approximately $3,346 of unauthorized
conspiracy to commit money laundering. He, too, agreed                purchases on her government travel card. This case was
to the forfeiture of specific personal and real property as           initiated based on a referral from the ADO.
set forth in the plea agreement. The investigation
revealed that the father received and accepted things of
value, personally and for other persons, from various
firms and others in return for funding and approving                        Peggy E. Gustafson, Inspector General
contracts. Additionally, he provided preferential
treatment to these contractors and subcontractors for                  If you are aware of suspected waste, fraud, or abuse
contracts awarded— and to be awarded— through the                      in any SBA program, please report it online at
USACE. The payments received by and promised to                        http://www.sba.gov/office-of-inspector-general/2662
him, directly or indirectly, totaled in excess of $30                  or call the OIG Hotline toll-free, at (800) 767-0385.
million. The son conspired with his father and others to
launder the proceeds of the scheme. In addition, the                   The OIG has established an e-mail address,
investigation revealed his individual role in the planned              oig@sba.gov that we encourage the public to use to
steering of a government contract, with an intended value              communicate with our office. We welcome your
at near $1 billion. This is a joint investigation with the             comments concerning this update or other OIG
FBI, IRS CI, Army Criminal Investigations Division, and                publications. To obtain copies of these documents
the Defense Criminal Investigative Service (DCIS).                     please contact:
                                                                                            SBA OIG
Florida Men to Forfeit $10,917, 092 in Fraud Proceeds                             409 Third Street SW, 7th Floor
On May 31, 2012, two Florida men were each sentenced                                  Washington, DC 20416
to 36 months incarceration, 36 months supervised                                       E-mail: oig@sba.gov
release, 500 hours of community service, and a $600                             Telephone number (202) 205-6586
special assessment fee related to their conviction on one                         FAX number (202) 205-7382
count of conspiracy and five counts of wire fraud. The
two were also ordered to forfeit $10,917,092 of proceeds               Many OIG reports can be found on the OIG’s website
                                                                       http://www.sba.gov/office-of-inspector-general


Update on the Activities of the SBA Office of Inspector General   3                                        May 2012
